OIG Investigative Reports, Two Former Tufts Employees Indicted For Stealing Nearly $1 Million From University
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
For Immediate Release July 1, 2008
Contact: Corey Welford/Jessica Venezia 781-897-8325
Two Former Tufts Employees Indicted For Stealing Nearly $1 Million From University
WOBURN - Middlesex District Attorney Gerry Leone informed
the public today that two former Tufts University employees have been indicted
for stealing nearly $1 million from the University in two separate schemes.
Josephine Nealley, Director of the University’s Office of Student Activities
between 1996 and 2007, and Raymond Rodriguez, the Budget and Fiscal Coordinator
for the Office of Student Activities between 2001 and 2007, were indicted today
by a Middlesex Grand Jury. Nealley is alleged to have stolen $372,576 and was
indicted on three counts of larceny over $250. Rodriguez is alleged to have
stolen $604,873 and was indicted on two counts of larceny over $250.
An arraignment date for these defendants has not yet been set.
"These two employees abused the access that they were entrusted with
to steal literally hundreds of thousands of dollars for their own personal use,"
District Attorney Leone said. "They have violated the trust of the University
and the students that they were supposed to help. We do want to commend the
work of Tufts University for uncovering this scheme and for referring it to
our office for a full investigation and prosecution."
"We appreciate the District Attorney's commitment and cooperation. We are deeply
disappointed that two individuals who were trusted by students and colleagues
abused that trust," said Patricia Campbell, Tufts Executive Vice President.
"Student activity funds were handled differently than other University business.
That is no longer the case. We have significantly improved student activities
systems to prevent future incidents. We have also taken steps to assure that
no student activities programs are adversely affected."
The schemes were first discovered by a member of the Tufts Internal Audit Department
who had received an anonymous tip. Based on a follow-up investigation, it was
determined that Nealley had control over bank accounts associated with the Office
of Student Activities.
Nealley used one of these accounts to deposit student activity funds and would
then transfer that money into her own personal bank accounts. She also used
the account to withdraw cash and make personal purchases. Bank records indicate
that Nealley used the debit/ATM card to make purchases at:
Foxwoods Resort and Casino
IKEA
Whole Foods
The Disney Store
Talbots
Omaha Steaks
Over a time period from 2001 to 2007, Nealley transferred $63,500 to her personal
line of credit, $91,000 to her personal checking account and also withdrew $174,908
in cash. In total, she is alleged to have stolen $372,576 from the University
through this scheme. She was not authorized to take or spend any of this money
by the University.
During the investigation, auditors also discovered that Rodriguez stole $604,873
from University student activity accounts. Auditors discovered that Rodriguez
wrote himself a check from a University account in the amount of $100,000. He
then deposited that check into an account he opened in his name, and used the
money to pay credit card bills.
Rodriguez also opened numerous credit cards in his name and in the name of
Tufts University. Rodriguez would use the cards to purchase personal items and
then pay the credit cards with checks drawn from the Tufts University student
activity account. From October 2005 to September 2007, Rodriguez is alleged
to have used Tufts money to purchase:
Trips to Paris, Montreal, New York, Las Vegas, Chicago, and other destinations
Tickets to concerts such as Madonna, Celine Dion, Rent, and opera performances
The defendant is also alleged to have spent hundreds of thousands of thousands
of dollars on luxury items such as wallets, watches, handbags, shoes, electronics,
and home goods from high end retailers such as:
Gucci
Tiffany and Co.
Bloomingdale’s
Louis Vuitton
Hermes, Coach, and Prada
These charges are allegations, and the defendant is presumed innocent until
proven guilty.
The prosecutor assigned to this case is Assistant District Attorney John Verner.
The investigation was conducted by the Tufts University Audit and Management
Services as well as the Middlesex District Attorney’s PACT Unit.
###
The Middlesex District Attorney's Office - Gerard T. Leone Jr.
15 Commonwealth Ave. | Woburn, MA 01801 | Phone (781) 897-8300
Top
Printable view
Share this page
Last Modified: 07/11/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov